2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 VAL egal B TH cfs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-123

SHARONELL FULTON, et al.,
Petitioners,
v.
CITY OF PHILADELPHIA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE FORMER ATTORNEY GENERAL EDWIN MEESE III IN SUPPORT OF
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 7977 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of June, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

he ner) Kenee 0. Llooa? Ondeaw ht: ble

My Comm. Exp. September 5, 2023
Notary Public Affiant
